MEMORANDUM FOR:                 RAYMOND J. UHALDE
                                Deputy Assistant Secretary
                                 for Employment and Training


FROM:                           JOHN J. GETEK
                                Assistant Inspector General
                                  for Audit

SUBJECT:                        Unemployment Insurance Field Audit Program:
                                Followup on the Results of Blocked Claim Audits for CY 2000
                                Final Letter Report No. 03-01-004-03-315


During Calendar Year (CY) 2000, we followed up with the State Employment Security Agencies to
determine what effect revisions to the Employment Security Manual (ESM) had on states’ successes in
identifying hidden or unreported wages and collecting related tax contributions from employers through
field tax audits.

The Employment and Training Administration (ETA) made the ESM revisions in February 1999 in
response to a finding in our audit report entitled Improvements are Needed in the Evaluation of
Audit Quality and the Reporting of Blocked Claim Audits, Final Letter Report No. 03-98-008-03-
315, issued September 25, 1998. Briefly, the audit found that many states were discouraged from
conducting blocked claim audits, which is one of the more effective ways to identify hidden wages,
because they did not meet the definition of a reportable audit (output) through ETA’s 581 Contributions
Operations report. ETA’s revision of the definition allowed states to get credit for conducting blocked
claim audits beginning in CY 1999.

Results of ESM Revisions

In our CY 2000 followup, 27 states reported that they (1) identified more than 20,000 employees who
had been misclassified by their employers, and (2) recovered more than $6 million of Unemployment
Insurance (UI) tax contributions as a result of blocked claim audits conducted during CY 2000 that
would not have been conducted without the ESM revisions.

Based on the information provided by the states, the Office of Inspector General (OIG) believes that
ETA’s revision of the ESM has maintained a significant positive effect on the performance and results of
state field tax audit programs.
Background

Unfortunately, not all employers voluntarily report all UI-covered wages or pay their fair share of UI
taxes as required by law. When employers classify employees as independent contractors, employers
reduce their tax liability by not having to pay state and Federal UI and social security taxes. Employers
also avoid the costs of withholding income taxes or providing fringe benefits as they do for employees.
Other incentives for not treating workers as employees include the costs associated with minimum wage
laws, workers’ compensation insurance, and collective bargaining. Thus, when an employee is
misclassified, tax revenues and benefits are lost.

In our 1998 audit, states ranked the search for hidden wages (blocked claims) as their primary
concern. They contended that the most common reporting error was the misclassification of workers
as independent contractors. A blocked claim is a claim for benefits for which employment status or
wage credits are questioned. If not resolved by claim representatives, such claims are referred to the
field audit staff for investigation and resolution. The investigation may result in a field audit.

Our audit found that some states were not performing blocked claim audits and others were performing
blocked claim audits but could not report the results because of the ESM definition contained in ESM
Appendix E, Part V, Section 3670-3693. ETA’s response to our report concurred that the ESM
policy should be revised. On February 5, 1999, Office of Workforce Security (OWS) issued Manual
Transmittal Letter (MTL) 1473 permitting states more flexibility in converting field investigations into
audits.

Results of Followup

We worked with the OWS to gather from the states the results of blocked claim audits that would not
have been conducted before the implementation of ESM changes.

The OIG, in agreement with OWS, developed a method to gather CY 1999 and subsequently
CY 2000 blocked claim audit results to determine the impact of the above-mentioned ESM changes on
blocked claim audits and the potential future impact on states’ audit programs. We requested states to
provide, on a Quarterly Electronic Worksheet, the results of blocked claim audits that they would not
have conducted prior to ESM Appendix E, Part V, Section 3670-3693, modification resulting from UI
Program Letter 03-99 and MTL 1473.

Specifically, we asked the states to provide the following information:

        •   total underreported and overreported contributions resulting from blocked claim audits, and
        •   total number of misclassified employees resulting from blocked claim audits.




                                                    2
Our CY 2000 followup for the 53 reporting entities (50 states and 3 territories) determined:

        •   27 states (or 51 percent) reported results from blocked claim audits that would not have
            been performed before the ESM changes

                •   20,220 misclassified employees were identified

                •   $6,002,970 in net contributions were recovered

        •   3 states plan to report blocked claim audit results in CY 2001

                •   2 states plan to begin performing and reporting blocked claim audits in
                    CY 2001 after a new audit program or automated tax system has been completed

                •   1 state plans to begin reporting blocked claim audit results in CY 2001 after other
                    reporting priorities are resolved

        •   23 states do not plan to change their practices of performing blocked claim audits

                •   6 states performed blocked claim audits before the ESM changes and are not
                    counted in the above figures for the 27 states

                •   16 states do not conduct blocked claim audits as part of their audit program

                •   1 state is without an operating audit program




                                                    3
The following chart summarizes the results by quarter from blocked claim audits that would not have
been performed before the ESM changes for CY 1999 and CY 2000.


      CY 1999               Number of               Misclassified                   Net Contributions
        and              States Reporting        Employees Identified                 Recovered*
      CY 2000
     by Quarter          1999         2000          1999          2000            1999                  2000

  First Quarter            12          26           3,164         3,619         $422,675          $1,362,106

  Second Quarter           15          27           3,389         5,547          525,286            1,332,986

  Third Quarter            21          27           2,789         6,035          726,668            1,245,202

  Fourth Quarter           23          27           3,908         5,019          868,920            2,062,676

        Totals             23          27          13,250        20,220       $2,543,549          $6,002,970

            * We were unable to determine the amount of unreported (hidden) wages identified
              by the states that resulted in the recovery of the net UI contributions reported above.



In summary, the chart above shows the benefits derived by 27 states that took advantage of the MTL
1473 permitting states more flexibility in converting field investigations into audits. Based on the results
of our Quarterly Electronic Worksheet, some states still are not willing to change their audit program’s
policy. Specifically, 17 (or 32 percent) of the 53 states and territories do not, and have no plans to,
perform blocked claim audits.

                                                  *****
Thank you for the excellent cooperation provided to us by Ms. Grace Kilbane, Administrator, OWS,
and Mr. Rett Hensley, and their staff in this audit.

This letter report is for your information and requires no response. If you have any questions about this
letter report, please contact William D. Kish, Acting Regional Inspector General for Audit, in
Philadelphia at (215) 656-2300.




                                                         4
